                               U.S. Small Bu..n... Administration 

                                        Washington, D.C. 20416 




 OFFICE OF
~QENERAL


                                                September 30, 2003

       TO:              James E. Rivera
                        Associate Administrator
                          for/~ciJ A:iJ.an~
       FROM:             Ei111iie~
                        Assistant Inspector General
                         for Inspection and Evaluation

       SUBJECT:         Inspection on Insufficient Proof ofCitizenship Status for SBA Loans

          We are pleased to submit our report on Insufficient Proof of Citizenship Status for
       SBA Loans. Recent Office of Inspector General (OlG) investigations have identified
       borrowers who misrepresented their citizenship status in order to obtain Small Business
       Administration (SBA) guaranteed loans, despite the fact that non-citizens (i.e., aliens) can
       receive SBA loans if they meet certain requirements. Because of such misrepresentations
       and the effects of antiterrorism legislation, this inspection's focus was to identify the
       requirements for determining citizenship eligibility as well as potential vulnerabilities.

          SBA and its lenders have little assurance that prospective borrowers truthfully disclose
       their citizenship status. The Agency cannot be reasonably certain that its loan programs
       benefit only eligible citizens or legal aliens because ofreliance on prospective borrowers'
       honesty, concerns about loan origination delays, concern over the appearance of
       discriminatory practices, and the lack of a definitive national identification system for
       foreign nationals. Consistent with the USA PATRIOT Act, SBA should issue an interim
       directive instructing its lenders to verify the identities of new customers involved with
       Agency programs. SBA has promptly begun to make progress on this issue.

          In addition, SBA cannot readily determine how many loans go to citizens and how
       many to aliens. Although the Agency's lending partners collect citizenship status
       information, SBA's loan databases do not contain such data. If the databases had the
       data, the Agency could identify potential trouble spots in its portfolio and perform
       programmatic research. So that the Agency can readily track which loans go to citizens
       and which to aliens, SBA should collect citizenship status data, including available alien
       registration numbers, in its loan databases.

             We appreciate the excellent cooperation received from your staff and the field offices.

       Attachment




                                  F....'.I Rocycl;ng Program ( ; Printed on RecycIod PII>I'
        Insufficient Proof 

                of 

Citizenship Status for SBA Loans 





         September 2003




          Report No. 3-43




    Office of Inspector General
Inspection and Evaluation Division
U.S. Small Business Administration
                             TABLE OF CONTENTS



                                                                     Page


EXECUTIVE SUMMARY                                                     111


BACKGROUND                                                             1

OBJECTIVES, SCOPE, AND METHODOLOGY                                     2

THE IMPORTANCE OF DETERMINING CITIZENSHIP STATUS                       3

NEW IDENTIFICATION REQUIREMENTS FOR BANKS AND                          4
SIMILAR INSTITUTIONS

FINDINGS

     1. SBA and its lenders have little assurance that prospective
        borrowers truthfully disclose their citizenship status.        6

     2. SBA cannot readily determine how many loans go to
        citizens and how many to aliens.                              10

SBA COMMENTS AND OIG RESPONSE                                         II

APPENDICES

     A       Office of Financial Assistance Comments                  \3

     B       Contributor to this Report                               14
                   ABBREVIATIONS




AAMVA   American Association of Motor Vehicle Administrators
CDe     Certified Development Company
CFR     Code of Federal Regulations
CIP     Customer Identification Program
FAFSA   Free Applications for Federal Student Aid
FBI     Federal Bureau ofInvestigation
FY      Fiscal Year
INS     Immigration and Naturalization Service
LPR     Legal Permanent Resident
OFA     Office of Financial Assistance
OIG     Office of Inspector General
SAVE    Systematic Alien Verification for Entitlements
SBA     Small Business Administration
SBle    Small Business Investment Company
SBLC    Small Business Lending Company
SOP     Standard Operating Procedure




                            11
                                     EXECUTIVE SUMMARY 


 Background. Recent Office of Inspector General (OlG) investigations have identified
 borrowers who have misrepresented their citizenship status in order to obtain Small
 Business Administration (SBA) guaranteed loans. Non-citizens in the U.S., referred to in
 regulations as aliens, can receive SBA loans if they meet certain requirements. Lenders
 must verify the immigration status of each alien, but immigration authorities release
 information about an alien to a lender only when the alien provides a signed
 authorization. However, if a borrower claims on the "Statement of Personal History"
 (SBA Form 912) that he/she is a U.S. citizen, the Agency does not require further
 verification.

 Knowing a person's citizenship status, i.e., whether he/she is a citizen or an alien,
 requires knowing that person's identity. The September 2001 terrorist attacks changed
 financial institutions' customer identification responsibilities and led to the USA
 PATRIOT Act. The Act required new regulations in which institutions must implement
 procedures for "verifYing the identity of any person seeking to open an account to the
 extent reasonable and practicable" [emphasis added].' Some regulations have been
 issued, including one for banks and similar institutions, but not for non-bank lenders as
 defined later in this report. Whereas falsifying one.'s identity and/or citizenship status
 used to be primarily a fraud issue, it is emerging as a homeland security issue. The
 challenge for SBA lenders is how to comply with the Act without creating undue
 hardships for honest prospective borrowers.

 Objectives, Scope, and Methodology. Because of misrepresentations of citizenship
 eligibility in SBA loan programs and the effects of antiterrorism legislation, this
 inspection's focus was to identify the requirements for determining citizenship eligibility
 as well as potential vulnerabilities. The OlG examined legislation, studies, articles,
 Congressional testimony, and other materials on identity verification and related issues.
 SBA and Federal banking agency officials were interviewed.

The Importance of Determining Citizenship Status. Citizenship status is more than
just a component of a person's identity. There are several reasons why it is important for
lenders to determine whether prospective borrowers are citizens, legal aliens, or illegal
aliens. These include:

  Possible Terrorist Connections. Several years ago, an SBA loan was approved but, 

. according to SBA records, not disbursed to a businessman later arrested as a terrorist 

  suspect. Moreover, an ongoing investigation of about 450 defaulted loans recently found 

  that-thus far-approximately 100 borrowers have misrepresented themselves as U.S. 

  citizens. Five were indicted and pled guilty, with more indictments expected. Many of
  these individuals are aliens from a nation subject to terrorism-related national security
  restrictions and have been systematically taught how to fraudulently obtain SBA loans.


 I   USA PATRIOT Act, Section 326(a) (I) (2).


                                                iii
Fraud. OIG investigations have revealed other crimes related to citizenship status. such
as attempted bribery to obtain citizenship papers and an individual receiving an SBA loan
even though this person was in the process of being deported.

Program Effectiveness. Effective service delivery requires determining whether an
individual is eligible for a program in the first place and, if so, learning what hislher
needs are. Despite SBA's eligibility requirements, an alien can simply circumvent
them by falsely claiming to be a U.S. citizen. For truly eligible borrowers, if
citizenship status information were readily available, the Agency and its resource partners
could better plan for technical and financial assistance needs, as well as make SBA
programs more transparent, thereby enhancing accountability.

New Identification Requirements for Banks and Similar Institutions. A final USA
PATRIOT Act regulation on customer identification programs (CIPs) was published on
May 9, 2003, requiring banks and similar institutions to implement CIPs appropriate for
their size and types of business. Regulations for various types of non-bank institutions
have not yet been issued and are unlikely to be issued anytime soon. In the interim, such
institutions are left without guidance on how to verify new customers' identities.

Findings. SBA and its lenders have little assurance that prospective borrowers
truthfully disclose their citizenship status. SBA cannot be reasonably certain that its
loan programs benefit only eligible citizens or legal aliens for the following reasons:

   • 	 Reliance on prospective borrowers' honesty on the Form 912.

   • 	 Concerns about delays in loan origination.

   • 	 Concern over the appearance ofdiscriminatory practices.

   • 	 Lack ofa definitive national identification system for foreign nationals.

Nonetheless, SBA and its lending partners can have a reasonable assurance of correctly
identifying borrowers and their citizenship status if they bear in mind three things:

   • 	 Keep expectations realistic, and do not expect perfection.

   • 	 To compensate for the current shortcomings of identification documents,
       emphasize "redundant" verification, i.e., the use of more than one type of
       verification to provide reasonable-but not absolute--assurance that a
       financial institution knows a customer's identity.

    • 	 Hold SBA lending partners to similar, if not identical, verification standards.
       . All lenders who benefit from SBA loan guarantees have an obligation to ensure
         that guaranteed funds are used as intended. Unfortunately, because it is unlikely
         that regulations applicable to non-bank lenders will be issued in the near future, a
         stopgap measure is needed.


                                             IV
    Recommendation 1 of 2: Consistent with the USA PATRIOT Act, SBA
    should issue an interim directive instructing SBA lenders to verify the
    identities ofnew customers involved with SBA programs. The directive should
    include the following elements:

   • 	 The directive should apply to all SBA lenders. However, because banks, 

       savings associations, credit unions, private banks, and trust companies 

       are subject to the recently issued USA PATRIOT Act regulation, they 

       should already be in compliance with the SBA directive. 


   • 	 At a minimum, a non-bank lender should require either two forms of 

       verifiable identification, or one such form of identification combined 

       with one type ofnon-documentary verification. 


   • 	 A non-bank lender should obtain from each new customer his/her name, 

       date ofbirth, address, and identification number. For a person claiming 

       to be a U.S. citizen, the identification number should be a taxpayer 

       identification number. For a person claiming to be an alien, it should 

       be at least one of the following: a taxpayer identification number, 

       passport number and country of issuance, alien identification card 

       number, or number and country of issuance of another government­

       issued document demonstrating nationality or residence and bearing a 

       safeguard such as a photograph. 


   • 	 A non-bank lender should periodically compare any government­

       provided list ofterrorists to its list ofcustomers. 


   • 	 The results of verifications of customers' identities should be part of the 

       lender's records for future inspection. 


SBA Comments and OIG Response. SBA's Office of Financial Assistance (OFA)
expressed concern that a directive would be redundant for many SBA lenders and offered
suggestions on a proposed directive.          We included all SBA lenders in the
recommendation in part to handle ambiguous regulatory situations, such as the major
bank that now owns a former non-bank lender.

Moreover, although a relative handful of lenders such as the largely unregulated Small
Business Lending Companies (SBLCs) are not yet covered by a USA PATRIOT Act
regulation on CIPs, SBLCs accounted for nearly $1.7 billion of Fiscal Year (FY) 2002
Section 7(a) loan disbursements, representing over 17 percent of the program's dollar
volume and an average (mean) loan amount exceeding $570,000. This is significant
exposure.

After providing written comments, OFA was extremely responsive to OIG concerns.
It promptly drafted a procedural notice on lender compliance with Treasury requirements


                                           v
for customer identification. The notice is in the Agency's clearance process for review.
Once cleared, the notice should satisfy Recommendation 1.


SBA cannot readily determine how many loans go to citizens and how many to aliens.
Although the Agency's lending partners collect citizenship status information, SBA' s
loan databases do not contain such data. If the databases had the data, the Agency could
identify potential trouble spots in its portfolio and perform programmatic research.
Finally, readily accessible data on citizenship status would make SBA loan programs
more transparent to Congress and the public. Without this type of accountability, the
Agency risks its programs not meeting public needs effectively.

    Recommendation 2 of2: So that the Agency can readily track which loans go
    to citizens and which to aliens, SBA should collect citizenship status data,
    including available alien registration numbers, in its loan databases.

SBA Comments and OIG Response. OFA has not yet made a management decision.
Given the challenges stated in this report, it is imperative that SBA collect sufficient data
in its loan databases to know its borrowers' identities, including citizenship status.
OFA's comments appear in Appendix A.




                                             VI
                                          BACKGROUND

Recent investigations by the Office of Inspector General (OIG) have identified borrowers
who have misrepresented their citizenship status in order to obtain Small Business
Administration (SBA) guaranteed loans. Non-citizens in the United States, referred to in
regulations as aliens, can receive SBA loans if they meet certain requirements. Although
businesses located in a foreign country are ineligible for SBA business loans, "businesses
in the U.S. owned by aliens may qualify.,,2 Moreover, according to the section of the
Standard Operating Procedure (SOP) on Businesses Owned by Persons Not Citizens of
the United States, "SBA can provide financial assistance to businesses that are owned by
persons who are not citizens of the United States. However, the processing procedures
and the terms and conditions will vary, depending upon the status of the owners assigned
by the Immigration and Naturalization Service (INS).,,3 Thus, eligibility for an SBA loan
depends on the individual borrower's immigration status.

The same SOP states that lenders must verify the INS status of each alien, but that INS
releases information about an alien's status to lenders only when a signed authorization
from the alien is provided to INS. 4 However, according to an SBA Policy Notice, if a
borrower claims on the "Statement of Personal History" (SBA Form 912) that
he/she is a U.S. citizen, the Agency does not require further verification. 5

In the case of naturalized citizens, the Agency's directives are more complicated. For
example, one SOP states, "Lenders and CDCs [Certified Development Companies] must
verify the INS status of all aliens and all naturalized citizens who control or own 20% or
more of any small business applicant." [bracketed notation added to quotation]6 Yet, the
previously mentioned Policy Notice instructs SBA employees not to verify the
citizenship status'of naturalized citizens. 7

In any event, knowing a person's citizenship status, i.e., whether he/she is a citizen or an
alien, requires knowing that person's identity. The September 11,2001, terrorist attacks
on the United States changed what financial institutions are expected to do to identify
their customers. In October 2001, Congress enacted the Uniting' and Strengthening
America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
(USA PATRIOT) Act. The Act required new regulations in which financial institutions
must implement procedures for "verifying the identity of any person seeking to open an
account to the extent reasonable and practicable" [emphasis added]. The new regulations
must also require financial institutions to maintain "records of the information used to

2 Code of Federal Regulations, title 13, part 120, section 110 (e). [13 CFR 120.110 (e)] 

3 SOP SO.10(4)(E), Subpart "A," item IS.h., page 70. Note: Since March 1,2003, the functions of INS 

have been performed in the U.S. Department of Homeland Security by the Bureau for Citizenship and 

Immigration Services and the Bureau of Immigration and Customs Enforcement. 

4 SOP SO-\o(4)(E), Subpart "A," item IS.h. (3), p. 70-2. 

, SBA Policy Notice SOOO-73S, dated June 7, 200 I. 

6 SOP SO- \o(4)(B), subpart "A, " paragraph 8.e.(4). 

7 Although Policy Notice SOOO-73S has an expiration date of June 1,2002, it is still being used. See the 

OIG Advisory Memorandum entitled "Problems with SBA's Directives System." 



                                                     1


                                                                                                             ,,".,.,.   <
verify a person's identity ... " and to consult "lists of known or suspected terrorists or
terrorist organizations ... ,,8 Moreover, one of the laws amended by the Act defines
"financial institution" broadly enough to include the vast majority of SBA lenders,
such as banks and fmance companies. 9

Some of the regulations derived from the USA PATRIOT Act have been issued. On 

May 9, 2003, the regulation for banks, savings associations, credit unions, private banks, 

and trust companies was published. This will be discussed later in more detail. 


Consistent with these regulations and for the purpose of clarity in this report, the
term "non-bank lender" means any lender that is not a bank, savings association,
credit union, private bank, or trust company. Non-bank lenders include Small
Business Lending Companies (SBLCs), Small Business Investment Companies (SBICs),
and Certified Development Companies (CDCs).

Regardless of what SBA and its lending partners have done in the past, the USA
PATRIOT Act requires financial institutions to exert extra eff<;Jrt to know their
customers' identities. Whereas falsifying one's identity and/or dtizenship status used
to be primarily a fraud issue, it is emerging as a homeland security issue. The
challenge for SBA's lending partners is how to comply with the Act without creating
undue hardships for honest prospective borrowers.


                        OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General (OIG) initiated this inspection after OIG investigations
revealed misrepresentations of citizenship eligibility. Moreover, as noted earlier,
antiterrorism legislation and regulations have altered what is expected of financial
institutions in terms of customer identification. In light of this, the focus of this
inspection was to identify the requirements for determining citizenship eligibility as well
as potential vulnerabilities to fraud and misrepresentation in SBA business loan
programs.

The OIG examined the USA PATRIOT Act, related legislation, applicable regulations,
SOPs, and other directives. (An issue involving a specific directive led to an advisory
memorandum entitled "Problems with SBA's Directives System.") Studies, articles, and
Congressional testimony on identity verification for citizens and foreign nationals,
identity fraud, eligibility corroboration for Federal programs, tax identification and Social
Security number integrity, and terrorist financial networks were analyzed. SBA and
Federal banking agency officials were interviewed, as were OIG investigators. Finally,
various other materials were analyzed, such as bank examination manuals, U.S.
Department of Justice notices, and press releases related to the USA PATRIOT Act and
banking industry changes.


8   USA PATRIOT Act, Section 326(a) (I) (2). 

9   United States Code Annotated, Title 31, Chapter 53, Section 5312. 



                                                      2
The inspection was conducted in accordance with the Quality Standards for Inspections
issued in March 1993 by the President's Council on Integrity and Efficiency.


        THE IMPORTANCE OF DETERMINING CITIZENSHIP STATUS

Citizenship status is more than just a component ofa person's identity. There are several
reasons why it is important for lenders to determine whether prospective borrowers are
citizens, legal aliens, or illegal aliens.

Possible Terrorist Connections. Since the September II, 2001 attacks, the U.S. has
learned how resourceful terrorist organizations can be in supporting their operations
through seemingly legitimate business and fund-raising activities. Even SBA may not be
immune to this problem.

Several years ago, an SBA loan was approved but, according to SBA records, not
disbursed to a businessman later arrested as a terrorist suspect. Moreover, an ongoing
investigation of about 450 defaulted loans in one state recently found that-thus far­
approximately 100 borrowers have misrepresented themselves as U.S. citizens. Five
were indicted and pled guilty, with more indictments expected. Many of these
individuals are aliens from a nation subject to U.S. Department of Justice terrorism­
related national security restrictions. Loan packagers are involved, as are both banks and
SBLCs. Complicating the situation is evidence that the prospective borrowers had been
systematically taught how to fraudulently obtain SBA loans. It is not yet clear what other
illegal activities may be involved.

In addition, small businesses in general-with or without SBA assistance-are being
investigated for terrorist links. For example, during 2002, the Federal Bureau of
Investigation (FBI) and INS raided dozens ofjewelry stores to uncover potential fronts or
financial backers for terrorist groups.

When borrowers from a nation known for terrorist activities systematically misrepresent
themselves as U.S. citizens, when a prospective SBA borrower is arrested as a possible
terrorist, or when small businesses in general are investigated for terrorist links, it is no
longer unimaginable that SBA financial assistance could be used---directly or
indirectly-to support terrorist organizations. To what extent these situations represent
greater vulnerabilities remains to be seen.

Fraud. OIG investigations have revealed other crimes related to citizenship status. For
example, in one situation, an individual attempting to obtain two SBA loans tried to bribe
a public official to obtain citizenship papers. In a separate case involving false tax
returns, an individual admitted that she was not a citizen, even though she had previously
represented herself as such. Another investigation uncovered an individual who had
received an SBA loan, even though this person was in the process of being deported. In
short, these individuals misrepresented their citizenship status in some manner for
financial gain.


                                             3

Program Effectiveness. Effective service delivery requires determining whether an
individual is eligible for a program in the first place and, if so, learning what his/her
needs are. In terms of eligibility, the SOP section entitled Businesses Owned by Persons
Not Citizens of the United States discusses Legal Permanent Residents (LPRs), i.e.,
persons who may stay in the U.S. for life unless the U.S. government revokes this
status.1O For businesses owned by non-immigrant aliens residing in the U.S., the SOP
requires that management have U.S. citizenship or verified LPR status, and that
management must have operated the business for at least one year prior to applying for a
loan. According to the SOP, "This requirement prevents financial assistance to "start-up"
businesses owned by aliens who do not have LPR status" [emphasis added]." Yet, an
alien can simply circumvent these various requirements by falsely claiming to be a
U.S. citizen. As noted earlier, if a borrower claims that he/she is a citizen, SBA does not
require further verification.

On the other hand, for truly eligible prospective borrowers, the Agency needs to know
their needs and plan accordingly. SBA can readily state how many borrowers share
certain characteristics, e.g., gender, race, or veteran's status, and can tailor its programs
accordingly. However, the Agency has not done so for an equally basic characteristic:
citizenship status. Having such information readily available would serve two
effectiveness-related functions. First, it would help the Agency and its resource partners
to better plan for borrowers' technical and financial assistance needs, particularly since
legal aliens are not always eligible for the same Federal, non-SBA assistance that citizens
are. Second, it would make the composition of SBA programs more transparent to
Congress and the small business community, thereby enhancing accountability.


                       NEW IDENTIFICATION REQUIREMENTS 

                      FOR BANKS AND SIMILAR INSTITUTIONS 


To implement section 326 of the USA PATRIOT Act, the Department of the Treasury
(through its Financial Crimes Enforcement Network) and other agencies published a final
regulation on customer identification programs (CIPs) on May 9, 2003 that became
effective on June 9, 2003. 12 Accordingly, part 103 of title 31 of the Code of Federal
Regulations (CFR) requires banks-broadly defined as banks, savings associations,
credit unions, private banks, and trust companies-to implement CIPs appropriate for
their size and types of business.')

The CIP "must include risk-based procedures for verifying the identity of each customer
to the extent reasonable and practicable. The procedures must enable the bank to form a

10 SOP 50-10(4)(E), Subpart "A," item 15.h. (l)(b), p. 70. 

"SOP 50-1O(4)(E), Subpart "A," items 15.h. (6) and 15.h. (7)(a), pp. 70-4 and 70-5. 

12 Federal Register, Volume 68, Number 90, May 9, 2003, pages 25090-25111. The other agencies are the 


Office ofthe Comptroller ofthe Currency, the Board of Govemors of the Federal Reserve System, the 

Federal Deposit Insurance Corporation, the Office of Thrift Supervision, and the National Credit Union 

Administration. 

13 31 CFR 103, Federal Register, Volume 68, No. 90, page 25090, May 9, 2003. 




                                                  4

reasonable belief that it knows the true identity of each customer.,,)4 A "customer" is
basically defined as a person that opens a new account. An "account" includes a credit
account or other extension of credit. The definition of "customer" is critical, because it
excludes a person who has an existing account, provided the bank reasonably believes it
knows that person's true identity.

At a minimum, the bank must generally obtain from the customer hislher name, date of
birth (for an individual), address, and identification number. For a U.S. citizen, the
identification number should be a taxpayer identification number. For a "non-U.S.
person," it should be at least one of the following: a taxpayer identification number,
passport number and country of issuance, alien identification card number, or number and
country of issuance of "any other government-issued document evidencing nationality or
residence and bearing a photograph or similar safeguard.") 5                       .


The erp procedures must describe when a bank will use documents, non-documentary
methods, or a combination thereof to verify a customer's identity. Examples of non­
documentary methods include contacting a customer, comparing customer-provided
information with public databases or other sources,' checking references with other
financial institutions, and obtaining financial statements. In addition, the eIP must
include procedures for determining if a customer appears on any Federally-issued list of
terrorists or terrorist organizations.

The regulation allows some flexibility, with a bank's eIP procedures to be based on an
assessment of risk involving such things as location and customer base. For example, a
small rural bank that is quite familiar with its customers might need little in the way of
customer identification. In contrast, a large urban financial institution would need more
customer identification and would likely perform some type of non-documentary
verification.

Nonetheless, as one banking agency official noted, a eIP is merely "a floor, not a
ceiling." A financial institution will need to exert extra effort beyond the eIP whenever
it has misgivings about a new customer.

Regulations for various types of non-bank institutions have not yet been issued. For
example, the Department of the Treasury has twice delayed issuing regulations for
finance companies until it better understands that type of business. Moreover, given that
the final regulation for banks-which are well-understood institutions-was delayed for
months, it is unlikely that regulations for finance companies and other less familiar
institutions will be issued anytime soon. In the interim, such institutions are left without
guidance on how to verify new customers' identities.




14 31 CFR 103.121(b)(2).
"31 CFR 103.121 (b)(2)(i)


                                            5
                                           FINDINGS 


1. SBA and its lenders have little assurance that prospective borrowers truthfully
disclose their citizenship status.

SBA cannot be reasonably certain that its loan programs benefit only eligible citizens or
legal aliens. The Agency risks serving the ineligible, possibly at the expense of the
eligible, and having funds diverted from their intended purpose. The internal and
external reasons for this are as follows.

Reliance on prospective borrowers' honesty. By far and away, the greatest reason for
SBA's lack of assurance that borrowers truthfully disclose their citizenship status is the
Agency's policy of accepting-at face value--a person's assertion on the Form 912 that
he/she is a U.S. citizen. As noted earlier, if a prospective borrower claims to be a U.S.
citizen, SBA requires no further verification. This makes it easy for unscrupulous
individuals to misrepresent their citizenship status and, as shown by the ongoing
investigation mentioned earlier, to teach others to do the same.

Concerns about delays in loan origination. According to SBA officials, INS had been
slow to provide verification of immigration status to lenders whose borrowers stated they
were aliens. In effect, such delays inadvertently penalize aliens who honestly disclose
their status by possibly postponing the financing necessary to keep their businesses
afloat. Moreover, verifying the citizenship status of all prospective borrowers, while
desirable from a security standpoint, could compound the problem unless the new
immigration bureaus under the Department of Homeland Security have become
significantly faster at processing verifications.

Concern over the appearance of discriminatory practices. Some lenders and SBA
officials have expressed concern that asking some prospective borrowers for proof of
citizenship status is inherently discriminatory. The issue is how to avoid even the
appearance of discrimination. According to the U.S. Commission on Immigration
Reform's testimony before Congress in 1994, "the best way to fight discrimination is to
treat everyone exactly the same.,,16 One way to accomplish this would be to verify
everyone's citizenship status with an outside agency-something SBA has shown no
desire to do.

The USA PATRIOT Act regulation published on May 9, 2003, provides a possible
alternative solution. Although it distinguishes a "non-U.S. person" from a U.S. citizen, it
requires identifying information from everyone. It is this universal burden that indirectly
minimizes the issue of discrimination.

Lack of a definitive national identification system for foreign nationals. According to a
Treasury Department report required by the USA PATRIOT Act on customer

16 Testimony of Barbara Jordan, Chair, U.S. Commission on Immigration Reform, before the U.S. House of
Representatives, Committee on the Judiciary, Subcommittee on International Law, Immigration, and
Refugees, September 29, 1994, page 3. See www.utexas.edu/lbj/uscir/092994.html.


                                                 6
identification requirements for foreign nationals, "there currently is no single, reliable
system within the Federal govermnent that domestic financial institutions could access to
verify the identity of foreign nationals ... ,,17 Impediments include the wide differences in
identification documents and the existence of fraudulent documents.

Even consulting immigration databases might not be effective. Such records do not
reflect millions of undocumented aliens and aliens who entered the U.S. without
inspection, plus thousands of Canadians and Mexicans visiting briefly. Treasury
concluded that, until options for improving existing capabilities can be devised, financial
institutions should use existing resources.

Yet, even existing resources have shortcomings. Driver's licenses, birth certificates, and
Social Security numbers were never intended to become universal identification
documents. Their original functions were, respectively, to document the permission to
drive, record births and monitor public health hazards, and aid the payment of Social
Security benefits. Moreover, some states issue driver's licenses with minimal scrutiny,
duplicate and counterfeit birth certificates can be easy to obtain, and fake Social Security
cards are readily available. 18

Characteristics Of Effective Eligibility Determination

Despite the above shortcomings, SBA and its lending partners can have a reasonable
assurance of correctly identifying borrowers and their citizenship status if they bear in
mind three things.

a. Keep expectations realistic. Because the U.S. has no national identification card or
similar tool, SBA and its lenders should not expect perfection in verifying the identities
of prospective borrowers. Nonetheless, by using the types of techniques and products
described below, financial institutions can dramatically improve their chances of success.

h. To compensate for the current shortcomings of identification documents, emphasize
"redundant" verification. Redundancy is the use of more than one type of verification to
provide reasonable-but not absolute-assurance that a financial institution knows a
customer's identity. It is a technique for managing, but not eliminating, risk.

The Department of the Treasury and the other agencies responsible for the May 9, 2003
rule on CIPs believe that redundancy enhances the value of documentary verification.
Banks and similar institutions are encouraged to obtain more than one type of
documentary verification as well as use a variety of non-documentary methods.




17 Department of the Treasury, "A Report to Congress in Accordance with Section 326(b) of the Uniting 

and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism 

Act of2001 (USA PATRIOT Act)," October 21, 2002, p. I. 

18 Star Systems. "Heightened Security: Can Financial Institutions Really Know Their Customers?" 

September 2002, pages 14-15, 17-19. 



                                                  7
Identifying and authenticating customers usually means gammg familiarity with
something a person has (such as a credit card), knows (such as a secret password), and is
(possibly proven by a physical signature, photograph, or fingerprint). However, it can be
difficult to perform all three types of identification in a cost-effective manner.19
Fortunately, the USA PATRIOT Act regulation for banks allows a flexible mix-and­
match approach of documentary and non-documentary verification that can keep costs
down.

In any event, according to Star Systems, a major financial services firm, no one product is
likely to meet all security needs. Reducing risk requires a combination of tools. For
example, financial institutions could use charts that help determine a Social Security
number's validity and whether a number corresponds with a person's age. Another tool
is the death master file of Social Security numbers. Other information can come from
check verification vendors, credit bureaus, and vendors whose proprietary national data
detects inconsistent or otherwise suspect information. 2o

Obviously, a determined criminal or terrorist could try to use more than one form of
phony identification. But if a financial institution periodically alters the mix of
documentary and non-documentary verification it requires, it lessens the chances of
fraudulent misrepresentation. Moreover, a financial institution has three advantages.

First, outside organizations upon which financial institutions rely are improving the
quality of their information. For example, the American Association of Motor Vehicle
Administrators (AAMVA) has devised a direct link to an online database that can
confirm the validity of a Social Security number and whether it was issued to the person
claiming that number. To enhance information securit(" AAMVA is examining how to
prevent insider fraud at departments of motor vehicles. 2

Second, any verification effort can have a deterrent effect. Some bankers have concluded
that the mere act of requesting verifiable information deters some dishonest individuals
from proceeding with their loan applications.

Third, existing non-documentary verification through credit bureaus and other databases
is a check on whether a customer is providing inconsistent information. Whether through
a Social Security number having a sequence inconsistent with the borrower's year of
birth or a neighbor'S contradiction of a borrower's loan application information, any type
of discrepancy is an immediate "red flag."

This is why the mix-and-match approach is promISIng. It is not necessarily the
information itself but rather the inconsistencies between information from different
sources that can alert financial institutions to potential trouble.


19Star Systems, "Identification and Authentication: Challenges and Opportunities," June 2001, page 7. 

20Star Systems, "Heightened Security: Can Financial Institutions Really Know Their Customers?" 

September 2002, pp. 25-27. 

" Star Systems, pp. 14 and 16. 



                                                   8

c. Hold SBA lending partners to similar, if not identical, verification standards. All
types of lenders can be vulnerable to fraud or terrorist activity. Equally important, all
lenders who benefit from SBA loan guarantees have an obligation to ensure that
guaranteed funds are used as intended. Regardless of the type of lender, it is ultimately
taxpayer dollars providing the final protection if lenders' losses were to mount
dramatically.

SBA's non-bank lenders provide services and receive public benefits comparable to those
of banks and similar institutions. It would be inherently inequitable to hold banks to a
significantly higher customer identification standard than, say, SBLCs. Unfortunately,
for reasons discussed earlier, it is unlikely that regulations applicable to non-bank lenders
will be issued in the near future. In the meantime, a stopgap measure is needed.

During this inspection, we examined various verification alternatives. For example, we
considered using the INS-originated Systematic Alien Verification for Entitlements
(SAVE) program, in which government agencies can obtain immigration status
information to determine whether an applicant is eligible for a public benefit. Likewise,
we considered citizenship verification techniques such as the U.S. Department of
Education's match of its Free Applications for Federal Student Aid (FAFSA) against the
Social Security Administration for applicants claiming to be U.S. citizens and against the
INS' successor agencies for applicants claiming to be non-citizens.

Whatever the merits of these approaches, a government agency still must employ limited
staff resources. More important, the USA PATRIOT Act places responsibility for
verifying customers' identities on financial institutions. It is the financial institution that
is closest to the customers, making it the first line of defense against identity and
citizenship fraud. Finally, because SBA lenders receive a government benefit, they bear
responsibility for knowing their borrowers.

In terms of verifying customer identity and citizenship status, a USA PATRIOT Act
regulation already covers banks, savings associations, credit unions, private banks, and
trust companies. Until regulations are issued for non-bank lenders, the challenge is how
to ensure that such lending partners are reasonably sure of new customers' identities
without creating an undue burden on legitimate small business borrowers.

Under current conditions, verifying all borrowers' citizenship status with an immigration
bureau or another agency would likely create unacceptable delays for many small
business borrowers. Likewise, although it would be desirable for non-bank lenders to
have detailed customer verification procedures in place until new USA PATRIOT Act
regulations are issued, this could mean a great deal of work for what hopefully should be
only an interim period.

Instead, SBA could proactively issue a relatively simple directive consistent with both the
intent of the Act and the basic substance of the regulation for banks. In line with the
flexibility allowed under the Act, SBA could simply require non-bank lenders to use
redundant verification for new customers' identities. If performed at the same time that


                                              9

other paperwork is prepared, such verification need not slow down the loan origination
process and would provide the non-bank lenders with reasonable assurance that they
indeed know their prospective borrowers.

Recommendation 1 of 2: Consistent with the USA PATRIOT Act, SBA should issue an
interim directive instructing SBA lenders to verify the identities of new customers
involved with SBA programs. The directive should include the following elements:

   • 	 The directive should apply to all SBA lenders. However, because banks, savings
       associations, credit unions, private banks, and trust companies are subject to the
       recently issued USA PATRIOT Act regulation, they should already be in
       compliance with the SBA directive.

   • 	 At a minimum, a non-bank lender should require either two forms of verifiable
       identification, or one such form of identification combined with one type of non­
       documentary verification.

   • 	 A non-bank lender should obtain from each new customer his/her name, date of
       birth, address, and identification number. For a person claiming to be a U.S.
       citizen, the identification number should be a taxpayer identification number. For
       a person claiming to be an alien, it should be at least one of the following: a
       taxpayer identification number, passport number and country of issuance, alien
       identification card number, or number and country of issuance of another
       government-issued document demonstrating nationality or residence and bearing
       a safeguard such as a photograph.

   • 	 A non-bank lender should periodically compare any government-provided list of
       terrorists to its list of customers.

   • 	 The results of verifications of customers' identities should be part of the lender's
       records for future inspection.



2. SBA cannot readily determine how many loans go to citizens and how many to
aliens.

In recent years, the Office of Management and Budget has sought to make government
programs more accountable and transparent to the public. To some extent, SBA' sloan
databases accomplish this by containing data on borrowers' race, gender, veteran's status,
and other characteristics. Yet, despite the fact that the Agency's lending partners collect
citizenship status information and alien registration numbers on the Form 912, SBA's
loan databases do not contain such data.




                                            10 

This is puzzling, particularly since citizenship status is a basic characteristic of any
government program beneficiary. By not having such data in its databases, SBA IS
missing opportunities for better program oversight, performance, and transparency.

If SBA's databases contained citizenship status data, the Agency could identify potential
trouble spots in its portfolio. By taking a sample of loans of self-identified citizens and
aliens, SBA could uncover borrowers misrepresenting their citizenship status. Database
analysis could determine what factors the borrowers had in common, e.g., the same
lender, loan packager, or geographic area. This could prevent future fraud or losses.

Even without the fraud detection aspect, having borrowers' citizenship status in the
databases would provide opportunities for analyzing economic activity. For example, by
having citizenship status in the database and using purchase rates on defaulted loans as a
performance indicator, SBA could:

   • 	 Identify concentrations of loans and defaults to aliens     III   terms of industry,
       geographical area, types oflenders, etc.,

   • 	 Compare loan purchase rates by various characteristics such as geographical area,
       and

   • 	 Determine in which industries aliens appear to be more successful than citizens,
       and vice versa. Follow-on research from this could identify institutional or other
       barriers to access to certain industries.

Finally, and most important, readily accessible data on citizenship status would make
SBA loan programs more transparent to Congress and the public. Withoutthis type of
accountability, the Agency risks its programs not meeting public needs effectively.

Recommendation 2 of 2: So that the Agency can readily track which loans go to
citizens and which to aliens, SBA should collect citizenship status data, including
available alien registration numbers, in its loan databases.


                      SBA COMMENTS AND OIG RESPONSE

Regarding Recommendation 1, SBA's Office of Financial Assistance (OFA) expressed
concern that a directive would be redundant for the "over 99 percent" of SBA lenders
already covered by the USA PATRIOT. Act regulation on CIPs. OFA also offered
suggestions on how to write a directive for lenders currently subject to the regulation and
lenders who are not.

We included all SBA lenders in the recommendation in part to handle ambiguous
situations. For example, one major bank now owns a former non-bank lender, making it
unclear whether this former non-bank lender is subject to the regulation on CIPs. A
directive that includes every type of SBA lender would cover virtually all situations.


                                            11 

Moreover, although a relative handful of lenders such as the largely unregulated Small
Business Lending Companies (SBLCs) are not yet covered by a USA PATRIOT Act
regulation on CIPs, SBLCs accounted for nearly $1.7 billion of the Section 7(a) loans
disbursed during Fiscal Year (FY) 2002. This represented over 17 percent of the
program's dollar volume. Even more telling, the average (mean) SBLC loan amount
exceeded $570,000. This is significant exposure.

After providing written comments, OFA was extremely responsive to OIG concerns. It
promptly drafted a procedural notice on lender compliance with Treasury requirements
for customer identification. The notice is in the Agency's clearance process for review.
Once cleared, the notice should satisfy Recommendation I.

Regarding Recommendation 2, OFA has not yet made a management decision. Given
the challenges stated in this report, we believe it is imperative that SBA collect sufficient
data in its loan databases to know its borrowers' identities, including citizenship status.

OFA's comments appear in Appendix A.




                                             12 

                                                                                                      Appendix A




"
•
".

     h.. 1953 ..~
      "'ST\\~
                .. .....
                           •              U.S. SMALL BUSINESS ADMINISTRATION
                                                 WASHINGTON, D.C. 20416




                    DATE:        September 11,2003
                           TO:   Bnile M Baebel
                                 Assistant Inspector General for Inspections

                  FROM:          James Rivera,             ~
                                 Associate Administrator
                                  For Financial Assistance

             SUBJECT:            Reply to Draft Report on Insufficient Proof of Citizenship

       The Office of Financial Assistance (OFA) takes this opportunity to comment on the Final Draft Report
       on Insufficient Proof of Citizenship from the Office of Inspector General (IG) before it becomes final,
       so that the two offices can work together to assure ourselves that the best possible customer
       identification practices are being complied with when a loan is supported by a guaranty from SBA.

        The Report on Insufficient Proof has two principal recommendations. The first is for SBA to issue a
        directive to all participating lenders saying they must verify the identities of all new customers
        involved with SBA programs. The second is that SBA develops and maintains a computer data base
        that lists the alien status of every owner of20% or more of every business that applies for an SBA 7(a)
        or 504 business loan.

        OFA finds that the first recommendation is not the most prudent way to address the issue of making
        sure those few lenders that SBA regulates establish their own Customer Identification Program (CIP).
        With the May 9,2003, issuance of regulations from the Department of the Treasury and other
        organizations that regulate lender activity, (31 CFR 103.121) over 99 percent of all the lenders who
        participate in SBA's loan guaranty programs are already required to implement their own CIP program
        beginning October I, 2003. It would be redundant for SBA to issue a directive to these same lenders
        saying they need to verifY the identities of their new customers when Treasury already has regulations
        that say the same thing. With such a directive SBA may inadvertently imply that the lender may need
        to do something for· their SBA loan applicants that they do not do for their own new customers.

         However the first recommendation could be altered so that it says a directive should be written that
         will (a) remind the regulated lenders that loans with an SBA guaranty are not exempt ~m the CIP
         requirements of Treasury et. all., and (b) that any participant not required to initiate a CIP program
         under Treasury requirements must follow these same requirements and implement their own CIP
         program by order of SBA.

         The non-regulated lenders should be given the same ability to develop their own CIP program as the
         Regulators gave the regulated lenders.

         Regarding the second recommendation for the creation of a computer data base OFAhas this under
         consideration and does not have a management decision at this time.



                                                                       13




                                                           .•.   Ji,"'"~"""""""""'   __   L",_a'.~.
                                                      Appendix B




                         CONTRIBUTOR TO THIS REPORT



Phil N eel, Senior Inspector




                                     14 

